 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




THE OFFICE OF COMMUNITY SERVICES
   DID NOT FULLY COMPLY WITH
    FEDERAL MONITORING AND
 REPORTING REQUIREMENTS FOR THE
   COMMUNITY SERVICES BLOCK
         GRANT PROGRAM

   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Gloria L. Jarmon
                                                 Deputy Inspector General
                                                    for Audit Services

                                                         June 2014
                                                       A-01-13-02505
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

The Office of Community Services did not fully comply with Federal monitoring and reporting
requirements for the Community Services Block Grant program for Federal fiscal years 2010
through 2012.

WHY WE DID THIS REVIEW

The Administration for Children and Families (ACF), Office of Community Services (OCS),
lacked effective internal controls within the Community Services Block Grant (CSBG) program,
according to the findings in a 2006 Government Accountability Office (GAO) report. Specifically,
GAO stated that OCS did not issue reports to States and annual reports to Congress on its
monitoring visits as required by law.

To determine whether OCS had taken corrective actions to address GAO’s recommendations, we
conducted a subsequent review in 2009. After we completed our fieldwork, OCS provided us
with its monitoring and reporting policies and procedures. In August 2009, we informed ACF
that we would perform a followup review to evaluate the effectiveness of OCS’s newly
implemented policies and procedures to address the internal control structure of the CSBG
program.

The objective of this review was to determine whether OCS complied with Federal monitoring
and reporting requirements of the CSBG program for Federal fiscal years (FYs) 2010 through
2012.

BACKGROUND

The Community Opportunities, Accountability, and Training and Educational Services Act of
1998, P.L. No. 105-285 (CSBG Act), reauthorized the CSBG program to provide funds to
alleviate poverty in communities. The CSBG program funds a State-administered network of
more than 1,100 local agencies that create, coordinate, and deliver programs and services to low-
income Americans. The CSBG Act requires OCS to perform annual evaluations of States’ use of
CSBG funds and to report the results of the evaluations to the States. The CSBG Act requires
States to prepare corrective action plans to address OCS recommendations. In addition, the
CSBG Act requires OCS to report annually to Congress on States’ use of CSBG funds and
results of OCS State evaluations. The CSBG program funded $700 million to States in FY 2010,
$679 million in FY 2011, and $677 million in FY 2012.

Our audit covered OCS’s monitoring and reporting of the CSBG program for Federal FYs 2010
through 2012.

WHAT WE FOUND

OCS did not fully comply with the CSBG Act’s monitoring and reporting requirements for
Federal FYs 2010 through 2012. Specifically:



The Office of Community Services Did Not Fully Comply With Federal Monitoring and              i
Reporting Requirements for the Community Services Block Grant Program (A-01-13-02505)
    •   Since October 2011, OCS issued five final State evaluation reports but had a backlog of
        nine final reports not issued to the States as of December 17, 2013. On average, OCS
        issued final State evaluation reports in excess of 2 years after it concluded related site
        visits.

    •   OCS did not issue an annual CSBG report to Congress in 2012. OCS issued the FY 2008
        and FY 2009 annual CSBG reports to Congress in June 2011 and July 2013, respectively;
        however, OCS has not issued the FY 2010 and FY 2011 annual CSBG reports to
        Congress and, therefore, has not reported on the results of State evaluations for these
        years. For the previous three CSBG annual reports issued to Congress, it took OCS an
        average of more than 3 years from the time the report preparation began to the time when
        Congress received the final report.

OCS policies, procedures, and internal controls did not adequately establish individual
accountability or processing times for each specific step to develop, review, and issue reports to
States and Congress efficiently and effectively in a timely and relevant manner. Additionally,
OCS changes in leadership; staff vacancies; and inadequate communication of management
expectations for report quality, timeliness, and accuracy contributed to delays in reporting.

WHAT WE RECOMMEND

We recommend that ACF:

    •   issue all delayed evaluation reports to State agencies and annual CSBG reports to
        Congress expeditiously,

    •   strengthen and implement policies and procedures to establish accountability and specific
        timeframes for each step of report preparation and issuance,

    •   incorporate specific data submission deadlines in cooperative agreements with vendors
        providing critical information used in the preparation of the OCS CSBG annual report to
        Congress,

    •   strengthen and implement controls to ensure full compliance with CSBG Act monitoring
        and reporting requirements, and

    •   ensure management stability and communication to oversee the effective implementation
        of the recommendations from GAO’s 2006 report and this review.

ACF COMMENTS

In written comments on our draft report, ACF stated that it has issued all of the delayed
evaluation reports that we identified in our review. In addition, ACF detailed the corrective
actions it has taken to address our recommendations.



The Office of Community Services Did Not Fully Comply With Federal Monitoring and                    ii
Reporting Requirements for the Community Services Block Grant Program (A-01-13-02505)
                                                    TABLE OF CONTENTS

INTRODUCTION .........................................................................................................................1

       Why We Did This Review .....................................................................................................1

      Objective ................................................................................................................................1

      Background ............................................................................................................................1
          Community Services Block Grant Program ..................................................................1
          Office of Community Services ......................................................................................2
          Federal Requirements ....................................................................................................2
          Office of Inspector General Early Alert ........................................................................3

      How We Conducted This Review ..........................................................................................3

FINDINGS .....................................................................................................................................4

      Monitoring of Eligible Entities...............................................................................................4
          Federal Requirements ....................................................................................................4
          Office of Community Services Policies and Procedures...............................................4
          Communication of Evaluation Results to States Not Efficient and Effective ...............5

      Community Services Block Grant Reports to Congress ........................................................5
         Federal Requirements ....................................................................................................5
         Office of Community Services Policies and Procedures...............................................5
         Annual Reporting Requirements Not Met.....................................................................6

      Causes of Inadequate Oversight .............................................................................................6

      Conclusion ..............................................................................................................................7

RECOMMENDATIONS ...............................................................................................................7

ACF COMMENTS ........................................................................................................................7

APPENDIXES

      A: Audit Scope and Methodology .........................................................................................9

      B: Office of Community Services Schedule of State Evaluation Reports Issued Since
          October 2011, as of December 17, 2013 .....................................................................11

      C: ACF Comments ..............................................................................................................12




The Office of Community Services Did Not Fully Comply With Federal Monitoring and                                                              iii
Reporting Requirements for the Community Services Block Grant Program (A-01-13-02505)
                                               INTRODUCTION

WHY WE DID THIS REVIEW

A 2006 Government Accountability Office (GAO) study of the Community Services Block
Grant (CSBG) program found that the Administration for Children and Families (ACF), Office
of Community Services (OCS), lacked effective internal controls to meet its legal requirements
for monitoring and reporting on States’ use of CSBG funds. 1 In response to these findings, OCS
committed to developing guidelines no later than May 2006 for conducting monitoring reviews,
communicating results to States, and working with States to ensure corrective action.
Additionally, OCS noted that it expected to provide to Congress in a timely manner the CSBG
report it was developing.

In 2009, we completed a review that found that OCS had taken corrective actions to address
GAO’s recommendations. 2 However, because OCS did not implement its policies for
monitoring and reporting until after we completed our fieldwork, we could not assess the
policies’ effectiveness. In August 2009, we informed ACF that we would perform a followup
review of the newly implemented policies and procedures.

OBJECTIVE

Our objective was to determine whether OCS complied with Federal monitoring and reporting
requirements of the CSBG program for Federal fiscal years (FYs) 2010 through 2012.

BACKGROUND

Community Services Block Grant Program

The Community Opportunities, Accountability, and Training and Educational Services Act of
1998, P.L. No. 105-285 (CSBG Act), reauthorized the CSBG program to provide funds to
alleviate poverty in communities. The CSBG program funds a State-administered network of
more than 1,100 community action agencies (CAAs) that create, coordinate, and deliver
programs and services to low-income Americans. The CSBG program funded $700 million to
States in FY 2010, $679 million in FY 2011, and $677 million in FY 2012.




1
 Community Services Block Grant Program: HHS Should Improve Oversight by Focusing Monitoring and
Assistance Efforts on Areas of High Risk, June 2006 (GAO-06-627). Available online: www.gao.gov/cgi-
bin/getrpt?GAO-06-627.
2
 Status of the Office of Community Services’ Actions Resulting From the Government Accountability Office Review
of the Community Services Block Grant, August 2009 (A-01-09-02502). Available online:
https://oig.hhs.gov/oas/reports/region1/10902502.pdf.

The Office of Community Services Did Not Fully Comply with Federal Monitoring and                          1
Reporting Requirements for the Community Services Block Grant Program (A-01-13-02505)
Office of Community Services

OCS administers 11 social service and community development initiatives. Through these
initiatives, OCS collaborates with States, communities, and agencies to eliminate causes of
poverty, increase self-sufficiency of individuals and families, and revitalize communities. OCS
is responsible for overseeing the CSBG program and carrying out the functions of the CSBG Act
through grants, contracts, or cooperative agreements. OCS performs its oversight function by
conducting onsite visits to evaluate States’ administration of CSBG funds; reporting to the States
on the results of the evaluations, including recommendations for improvements to enhance the
impact of the use of funds; and ensuring that each State prepares a corrective action plan to
address reported issues. Further, OCS prepares annual reports to Congress on the use of CSBG
funds and the results of its State evaluations.

OCS performs an onsite evaluation, conducted in the State over a 5-day period, of the State’s
administration and oversight of CAAs’ use of CSBG funds; reviews audit and program-related
issues to ensure compliance with Federal laws and accounting standards; and conducts onsite
visits of CAAs. Upon completion of these onsite reviews, OCS staff conducts an exit briefing
with State personnel to communicate OCS’s preliminary results. After OCS issues a draft report
with recommendations for improvements, the State must respond with a corrective action plan to
address the identified issues with proposed enhancements to its use of CSBG funds.

OCS obtains the CSBG data it uses to prepare its annual report to Congress through cooperative
agreements with the National Association for State Community Services Programs (NASCSP),
which compiles the data from the States. In its application, NASCSP stated that it would publish
reports of the CSBG data to OCS no later than September 30 of the following year. For
example, NASCSP indicated that it would publish its FY 2008 CSBG Report to OCS no later
than September 30, 2009. Further, in its application, NASCSP stated: “Based upon past
timelines, developed as a result of requests received from OCS, [NASCSP] will assist OCS to
ensure that the Congressional reports are completed no later than October 31.” The cooperative
agreements between OCS and the vendor did not identify these time requirements. OCS staff
combines the CSBG data with the results of State evaluations to prepare the initial draft of the
annual CSBG report to Congress. Annual reports are issued to Congress through a process
managed by the ACF Office of Legislative Affairs and Budget (OLAB) and the U.S. Department
of Health and Human Services (HHS), Office of the Secretary.

Federal Requirements

The CSBG Act requires OCS to perform annual evaluations of several States’ use of CSBG
funds and to report the results of the evaluations to the States, including recommendations for
improvements. The CSBG Act requires States to prepare corrective action plans to address OCS
recommendations. In addition, the CSBG Act requires OCS to prepare a report to Congress at
the end of each FY beginning after September 30, 1999. This annual report identifies States’ use
of CSBG funds and the results of OCS State evaluations.

OMB Circular A-123 provides guidance to Federal managers on improving the accountability
and effectiveness of Federal programs and operations by establishing, assessing, correcting, and

The Office of Community Services Did Not Fully Comply with Federal Monitoring and             2
Reporting Requirements for the Community Services Block Grant Program (A-01-13-02505)
reporting on internal controls. Issued under the authority of the Federal Managers’ Financial
Integrity Act of 1982, as codified in 31 U.S.C. 3512, OMB Circular A-123 identifies
management’s responsibility for establishing and maintaining internal controls to achieve the
objectives of effective and efficient operations, reliable financial reporting, and compliance with
applicable laws and regulations. Specifically, under part II of OMB Circular A-123,
management is responsible for developing and maintaining internal control standards for control
environment, risk assessment, control activities, information and communication, and
monitoring.

Office of Inspector General Early Alert

We issued an early alert to ACF on July 10, 2013, 3 outlining our preliminary audit results.
Specifically, we stated:

     •    OCS has issued only 3 final State evaluations reports since October 2011 and has a
          backlog of 11 final reports not issued to States as of June 6, 2013.

     •    OCS did not issue its FY 2008 CSBG annual report to Congress until June 2011 and has
          not issued its FY 2009 through 2012 CSBG annual reports.

HOW WE CONDUCTED THIS REVIEW

Our audit focused on OCS’s oversight of the CSBG program during Federal FYs 2010 through
2012. We reviewed OCS policies, procedures, and internal controls for its oversight of the
CSBG program. Through staff interviews and documentation review, we gained an
understanding of OCS’s onsite monitoring processes for States, reporting processes for State
evaluations, and annual CSBG reports to Congress. We evaluated OCS’s monitoring and
reporting of the States’ administration of the CSBG program relative to Federal requirements.
We limited our review to OCS’s policies, procedures, and internal controls specific to
monitoring and reporting of the CSBG program.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology. Appendix B contains the
OCS schedule of State evaluation reports issued since October 2011, as of December 17, 2013.




3
 The early alert informed ACF officials of our significant preliminary findings; it is available online at
http://oig.hhs.gov/oas/reports/region1/11302505.pdf.

The Office of Community Services Did Not Fully Comply with Federal Monitoring and                            3
Reporting Requirements for the Community Services Block Grant Program (A-01-13-02505)
                                              FINDINGS

OCS did not fully comply with Federal monitoring and reporting requirements for the CSBG
program for Federal FYs 2010 through 2012. Specifically:

    •   Although OCS issued five final State evaluation reports since October 2011, it had a
        backlog of nine final reports that it had not issued to the States as of December 17, 2013.
        (See Appendix B.) On average, OCS issued final State evaluation reports in excess of 2
        years after it concluded related site visits.

    •   OCS did not issue an annual CSBG report to Congress in 2012. OCS issued the FY 2008
        and FY 2009 annual CSBG reports to Congress in June 2011 and July 2013, respectively;
        however, OCS has not issued the FY 2010 and FY 2011 annual CSBG reports to
        Congress and, therefore, has not reported on the results of State evaluations for these
        years. For the previous three CSBG annual reports issued to Congress, it took OCS an
        average of more than 3 years from the time the report preparation began to when
        Congress received the final report.

OCS policies, procedures, and internal controls were not adequate to ensure that OCS performed
its monitoring and reporting responsibilities in an efficient and effective manner according to
Federal requirements.

MONITORING OF ELIGIBLE ENTITIES

Federal Requirements

OCS must conduct compliance evaluations of several States in each FY, report to States on the
results of these evaluations, and make recommendations for improvements designed to enhance
the benefits and impact of the activities carried out with CSBG funds for people in need (CSBG
Act, section 678B(c)). After receiving an evaluation report, States must submit a plan of action
that addresses the recommendations contained in the report.

Issued under the authority of the Federal Managers’ Financial Integrity Act of 1982, as codified
in 31 U.S.C. 3512, OMB Circular A-123 identifies management’s responsibility for establishing
and maintaining internal controls to achieve the objectives of effective and efficient operations,
reliable financial reporting, and compliance with applicable laws and regulations. To meet these
objectives, management is responsible for developing and maintaining internal control activities
relating to standards of information and communication. Specifically, management must
communicate relevant information to external organizations in a timely and reliable manner.

Office of Community Services Policies and Procedures

OCS internal procedures and guidelines establish timelines for conducting evaluations of each
State’s administration and oversight of its CSBG program. OCS procedures allow 60 days from
the completion of the site visit to issue a draft report to the State and 200 days from the start of
the preplanning phase to issue final State evaluation reports.

The Office of Community Services Did Not Fully Comply with Federal Monitoring and                4
Reporting Requirements for the Community Services Block Grant Program (A-01-13-02505)
Communication of Evaluation Results to States Not Efficient and Effective

Since October 2011, OCS has issued five final State evaluation reports, but it had a backlog of
nine final reports that it had not issued to the States as of December 17, 2013. (See Appendix
B.) 4 Specifically:

    •    for the five final evaluation reports issued to States, it took OCS, on average, 2 years (750
         days) to issue evaluation reports to States after conducting the onsite evaluation and

    •    for the nine draft evaluation reports issued to States, it took OCS, on average, 1.5 years
         (599 days) to issue evaluation reports to States after conducting the onsite evaluation.

OCS did not comply with its policies and procedures and Federal standards identified in OMB
Circular A-123 for issuing timely communication to outside organizations to achieve the most
effective and efficient use of CSBG funds. OCS’s delays in reporting evaluation results
diminished the relevance of its recommendations to States and the impact of timely corrective
actions to ensure the optimal use of CSBG funds for individuals in need. Furthermore, OCS’s
delayed communication of its monitoring results to the States did not provide an adequate model
of efficient and effective oversight for the States that oversee CSBG funds issued to CAAs.

COMMUNITY SERVICES BLOCK GRANT REPORTS TO CONGRESS

Federal Requirements

OCS must prepare a report at the end of each FY beginning after September 30, 1999
(CSBG Act, section 678E(b)(2)). OCS may prepare the report itself, or it may have a grantee or
contractor prepare it. The report must contain specific data about the use of CSBG funds,
eligible entities, and beneficiaries. In addition, OCS must annually submit the results of the State
evaluations to Congress as part of the report (section 678B(c)).

OMB Circular A-123 identifies management’s responsibility for establishing and maintaining
internal controls to achieve the objectives of effective and efficient operations, reliable financial
reporting, and compliance with applicable laws and regulations. To meet these objectives, OMB
Circular A-123 establishes standards identifying management’s responsibility for developing and
maintaining internal control activities that comply with applicable statutes and for
communicating relevant information in a timely manner. To meet these standards, managers
must have policies and procedures that ensure the fulfillment of statutory responsibilities and
communicate relevant information in a timely and reliable manner.

Office of Community Services Policies and Procedures

OCS internal procedures and guidelines for the timeliness of congressional reports and materials
state that OCS will set initial deadlines to ensure timely submission of required reports to

4
 Since we issued the early alert on July 10, 2013, OCS has issued two final State evaluation reports and nine draft
State evaluation reports.

The Office of Community Services Did Not Fully Comply with Federal Monitoring and                               5
Reporting Requirements for the Community Services Block Grant Program (A-01-13-02505)
Congress. The procedures state that OCS will comply with all submission deadlines for reports
established by OLAB.

Annual Reporting Requirements Not Met

OCS did not issue an annual CSBG report to Congress in 2012. Further, OCS has not issued the
FY 2010 and FY 2011 annual CSBG reports to Congress and, therefore, has not reported on the
results of State evaluations for these years. 5 For the three most recent CSBG annual reports
issued to Congress, it took OCS an average of more than 3 years from the time the report
preparation began to when Congress received the final report. Specifically:

       •    the FY 2007 annual report was issued in April 2010 and took 2.7 years to issue,

       •    the FY 2008 annual report was issued in June 2011 and took more than 2.6 years to
            issue, and

       •    the FY 2009 annual report was issued in July 2013 and took more than 3.8 years to issue.

Within ACF, we noted inconsistent report deadlines between OCS and OLAB. 6 Neither OCS’s
policies and procedures nor the cooperative agreements with the vendor identified specific time
requirements for data collection, review, and date of report submissions to Congress. OCS did
not comply with the CSBG Act’s annual report requirements to Congress or OMB
Circular A-123 internal control requirements for communicating relevant information in an
effective, efficient, and timely manner. As a result, Congress did not have assurance that States
used funds as intended because it had not received required reports on the use of CSBG funds
and the results of OCS State evaluations.

CAUSES OF INADEQUATE OVERSIGHT

OCS policies, procedures, and internal controls were not adequate to ensure that OCS performed
its monitoring and reporting responsibilities in an effective and efficient manner according to
Federal requirements. Specifically:

      •    OCS policies and procedures did not identify clear and concise time requirements of
           milestones to develop and issue State and Congressional reports on a timely basis.

      •    OCS policies and procedures did not establish clear accountability for report
           development and review by all contributing staff, including OCS management, OLAB,
           and HHS Office of the Secretary.

5
    Since we issued the early alert on July 10, 2013, OCS issued the FY 2009 CSBG annual report to Congress.
6
  Prior to issuance of the early alert on July 10, 2013, OLAB provided us with an internal schedule that set the due
date for the FY 2009 OCS annual CSBG report to Congress as June 30, 2010. OCS had an internal schedule for this
report with a due date to OLAB after June 30, 2010. OCS officials subsequently informed us that the OLAB
schedule was not attainable.

The Office of Community Services Did Not Fully Comply with Federal Monitoring and                              6
Reporting Requirements for the Community Services Block Grant Program (A-01-13-02505)
    •   OCS cooperative agreements did not include specific time requirements by the vendor for
        submitting critical information used in the preparation of the OCS CSBG annual report to
        Congress.

    •   OCS changes in leadership, staff vacancies, and inadequate communication from
        management of expectations for report quality, timeliness, and accuracy contributed to
        delays in reporting. For example, an OCS director was not appointed until October 2011,
        an OCS deputy director was on leave for 7 months in 2012, and the OCS Division of
        State Assistance had a management vacancy (financial operations team lead) for more
        than 1 year.

CONCLUSION

States and Congressional oversight committees did not receive relevant information as required
under law in a timely manner because OCS did not adequately fulfill its monitoring and
reporting responsibilities. As a result, States may not have made improvements in their
administration of CSBG funds. OCS’s inability to provide timely reports that include the results
of these evaluations hindered Congress’s ability to carry out its oversight responsibilities.
Furthermore, OCS did not fully implement GAO’s 2006 recommendations to establish effective
policies, procedures, and internal controls to meet Federal monitoring and reporting requirements
for the CSBG program.

                                      RECOMMENDATIONS

We recommend that ACF:

    •   issue all delayed evaluation reports to State agencies and annual CSBG reports to
        Congress expeditiously,

    •   strengthen and implement policies and procedures to establish accountability and specific
        timeframes for each step of report preparation and issuance,

    •   incorporate specific data submission deadlines in cooperative agreements with vendors
        providing critical information used in the preparation of the OCS CSBG annual report to
        Congress,

    •   strengthen and implement controls to ensure full compliance with CSBG Act monitoring
        and reporting requirements, and

    •   ensure management stability and communication to oversee the effective implementation
        of the recommendations from GAO’s 2006 report and this review.

                                          ACF COMMENTS

In written comments on our draft report, ACF stated that it has issued all of the delayed
evaluation reports that we identified in our review. In addition, ACF detailed the corrective
The Office of Community Services Did Not Fully Comply with Federal Monitoring and               7
Reporting Requirements for the Community Services Block Grant Program (A-01-13-02505)
actions it has taken to address our recommendations. ACF’s comments are included in their
entirety as Appendix C.




The Office of Community Services Did Not Fully Comply with Federal Monitoring and           8
Reporting Requirements for the Community Services Block Grant Program (A-01-13-02505)
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit focused on OCS’s oversight of the CSBG program during Federal FYs 2010 through
2012. We reviewed OCS policies, procedures, and internal controls for its oversight of the
CSBG program. Through staff interviews and documentation review, we gained an
understanding of OCS’s onsite monitoring processes for States, reporting processes for State
evaluations, and annual CSBG reports to Congress. We evaluated OCS’s monitoring and
reporting of the States’ administration of the CSBG program relative to Federal requirements.

We limited our review of OCS’s monitoring and reporting internal controls to those applicable to
the CSBG program.

We conducted our fieldwork from May through September 2013 in Washington, D.C.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed prior GAO and Office of Inspector General reports on OCS reporting and
        monitoring of funds for the CSBG program;

    •   reviewed applicable Federal laws and guidance to obtain an understanding of OCS’s
        responsibilities for monitoring and reporting the use of CSBG funds;

    •   interviewed OCS personnel and reviewed policies and procedures to determine how OCS
        addresses Federal requirements for the monitoring of States’ use of CSBG funds and
        reporting to Congress on the use of funds and the results from its State evaluations;

    •   interviewed OCS personnel to determine the steps that OCS had taken to implement its
        policies and procedures on monitoring and reporting;

    •   compared OCS monitoring milestones to the State assessments performed during
        Federal FYs 2010 through 2012 to determine whether its established timeframes were
        met;

    •   reviewed State evaluation reports and analyzed assessment cycles for State evaluations
        performed between January 2010 through October 2012;

    •   reviewed the schedule of annual CSBG reports due to Congress and reports issued
        between Federal FYs 2010 and 2012;




The Office of Community Services Did Not Fully Comply with Federal Monitoring and            9
Reporting Requirements for the Community Services Block Grant Program (A-01-13-02505)
    •   compared ACF submission deadlines for Congressional reports to OCS’s CSBG annual
        reports issued to Congress during Federal FYs 2010 through 2012 to determine whether
        Federal reporting requirements were met;

    •   reviewed elements of OCS CSBG annual reports to Congress;

    •   reviewed funding opportunity announcements, grantee applications, cooperative
        agreements, and notice of grant awards specific to OCS’s issuance of the annual CSBG
        Report to Congress; and

    •   discussed our results with OCS and ACF officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




The Office of Community Services Did Not Fully Comply with Federal Monitoring and           10
Reporting Requirements for the Community Services Block Grant Program (A-01-13-02505)
    APPENDIX B: OFFICE OF COMMUNITY SERVICES SCHEDULE OF STATE
           EVALUATION REPORTS ISSUED SINCE OCTOBER 2011,
                        AS OF DECEMBER 17, 2013

                                                                   Draft Response
                       OCS Onsite Visit        Draft Report        Received From         Final Report
     State                Started             Issued to State           State           Issued to State
 South Carolina          3/15/2010               9/14/2010          No response            4/17/2012
                                                                      received
    Arizona                5/24/2010             1/25/2011           4/17/2012            4/17/2012
 North Carolina            1/24/2011              4/1/2011           5/16/2011             9/9/2013
    Kansas                 3/21/2011             11/8/2011          No response           9/21/2012
                                                                      received
  Pennsylvania             5/16/2011             9/25/2013          No response         No final report
                                                                      received              issued
    Tennessee              7/18/2011             4/25/2013          No response           9/9/2013
                                                                      received
   New Jersey              9/26/2011             12/9/2013          No response         No final report
                                                                      received              issued
    Michigan              10/24/2011             11/6/2013          No response         No final report
                                                                      received              issued
     Alabama               1/23/2012             9/25/2013          No response         No final report
                                                                      received              issued
     Missouri              3/26/2012            11/25/2013          No response         No final report
                                                                      received              issued
    New York               6/11/2012             9/30/2013          No response         No final report
                                                                      received              issued
   Washington              7/30/2012            11/25/2013          No response         No final report
                                                                      received              issued
    Wisconsin              9/24/2012             11/1/2013          No response         No final report
                                                                      received              issued
     Colorado             10/22/2012            11/25/2013          No response         No final report
                                                                      received              issued




The Office of Community Services Did Not Fully Comply with Federal Monitoring and                  11
Reporting Requirements for the Community Services Block Grant Program (A-01-13-02505)
                                APPENDIX C: ACF COMMENTS

       DEPARTMENT OF HEALTH AND HUMAN SERVICES 



                                                                         ADMINISTRATION FOR CHILDREN AND FAMILIES
                                                                         Office of the Assistant Secretary, Suite 600
                                                                         370 !..:Enfant Promenade, S.W.
                                                                         Washington, D.C. 20447



Gloria L. Jarmon
Deputy Inspector General for
 Audit Services
U.S. Department of Health and Human Services
330 Independence Ave, SW, Room 5700
Washington, DC 20201

Dear Deputy Inspector General Jarmon:

I am writing in response to the Office ofthe Inspector General's (OIG) draft report, The Office of
Community Services Did Not Fully Comply With Federal Monitoring and Reporting
Requirements for the Community Services Block Grant Program (A-01-13-02505), which
contains recommendations for the Administration for Children and Families (ACF) regarding
administration and oversight of the Community Services Block Grant (CSBG). ACF takes
seriously its responsibility to provide financial and program oversight and monitoring of CSBG
funds, and appreciates the opportunity to review your draft report and provide comments.

ACF has taken significant steps to comply with the recommendations. The efforts taken in
response to specific OIG recommendations are discussed in more detail below.

Recommendatio~t:  Issqe all delayed evaluation reports to State agencies and annual CSBG
reports to Congress expeditiously.

Evaluation Reports

At this time, all of the delayed evaluation reports, also known as state assessments, identified in
Appendix B (page 10) of the OIG draft report have been issued in final (Attachment A). The
final state assessment reports include findings and recommendations designed to enhance the
benefit and impact ofthe activities carried out with CSBG funds. These assessment reports are
public and can be found on the agency's website. 1 The Office of Community Services (OCS) is
currently supporting and monitoring these states' corrective actions relative to findings in the
reports.




1
  Links to these published state assessments are found on the following web address:
http://www .acf.hhs.gov/programs/ocs/resource­
library/search?area%5b21 06%5d=21 06#?area[21 06]=21 06&topic[5792]=5792&topic[5798]=5798&ajax= 1&sort=r
ecent




The Office of Community Services Did Not Fully Comply with Federal Monitoring and                     12
Reporting Requirements for the Community Services Block Grant Program (A-01-13-02505)
Page2


In addition to issuing the reports identified by the OIG in the backlog list, OCS is processing the
state evaluation reports for FY 2013 and expects to issue the final reports by the end of July
2014, subject to receipt of the states' comments and improvement plans. Finally, OCS is
conducting the FY 2014 CSBG comprehensive state assessment visits between March and
September 2014. OCS will issue draft reports to the states in accordance with improved policies
and procedures. For information on new policies and procedures to ensure expeditious report
processing in the future, please see our response under the next recommendation.

Reports to Congress

OCS has made significant progress to expedite the release of pending reports to Congress. The
FY 2009 report was submitted to Congress on July 24,2013. The FY 2010 report was submitted
to Congress on February 10,2014. These reports are public and can be found on the agency's
website. 2 The reports for FY 2011 and FY 2012 are currently in ACF clearance, and our goal is
to complete the ACF and Departmental clearance process so that they can be released by early
fall of2014.

For FY 2013, and future years, we are adhering to a clear and concise timetable with specific
milestones (e.g., data collection, report drafting and reviews) that delineates distinctive tasks and
responsibilities for all contributing staff, including the grantee, OCS, the ACF Office of
Legislative Affairs and Budget, and HHS. The proposed timetable will ensure the report is
submitted to Congress within 18 months after the end of the relevant fiscal year, or no later than
March 2015. We further discuss the timetable and improved policies and procedures for reports
to Congress under the third recommendation.

Recommendation: Strengthen and implement policies and procedures to establish
accountability and specific timeframes for each step ofreport preparation and issuance.

ACF leadership has given priority attention to procedures and practices that will strengthen the
use of federal funds in compliance with the CSBG Act. The following are some of the corrective
action steps taken to strengthen OCS and ACF internal accountability and facil~tate timeliness:

•	    Updated and coordinated state assessment guidelines: At the direction of the newly hired
      OCS Financial Operations Branch Chief, the CSBG Assessment Team is reviewing and
      updating existing guidelines outlining the process for conducting monitoring reviews and
      communicating the results of the assessments to states, establishing internal timelines for
      preparation and issuance of reports, and working with states to ensure corrective action.
      We expect to complete the guidelines' revision by the winter of2014. All changes are
      being duly documented in the OCS' SharePoint repository module;



2
 Links to these reports are found on the following addresses:
htt;p://www.acf.hhs.gov/sites/default/files/ocs/2009 csbg report to congress 071613 .pdf and
http://www.acf.hhs.gov/programs/ocs/resource/csbg-report-to-congress- zy-20 I 0




The Office of Community Services Did Not Fully Comply with Federal Monitoring and                  13
Reporting Requirements for the Community Services Block Grant Program (A-01-13-02505)
Page 3


•	    Web-based workflow system: OCS instituted a new system for report clearance that
      includes a more structured style and substantive editing process that is documented in a
      SharePoint workflow system;
•	    Revised state assessment report template: OCS has already established a detailed quality
      review of state assessment reports, in order to ensure high quality, accuracy and uniformity.
      An upgraded electronic template is being developed to facilitate quality control and
      expedite review and clearance;
•	    State assessment tracking tools: OCS developed a CSBG-specific electronic tracking
      system to follow-up on post-assessment activity, including state corrective actions on
      fmdings and recommendations. A similar tool to track all internal activity leading to the
      assessment is being developed as well; and,
•	    Revised FY 2014 schedule: For site visits to be conducted in the remainder ofFY 2014,
      OCS published an information memorandum (IM) that lists the states to be visited and the
      criteria used in selection. All analysis working documents used in conducting the risk
      analysis based on criteria outlined in the IM are now maintained on the OCS SharePoint
      site. In addition, we revised the CSBG monitoring internal procedures and guidelines to
      identify specific milestones for each step of the assessment cycle and implement clear and
      concise time requirements to ensure timely report preparation and issuance.

Recommendation: Incorporate specific data submission deadlines in cooperative agreements
with vendors providing critical information used in the preparation ofthe OCS CSBG annual
report to Congress.

The CSBG Act does not specify the due date for the annual report. Historically, there has been a
.significant time lag between the end of the fiscal year and submission of the report due to the
complexity of the data collection and report production process. Local community action
agencies must submit detailed activity and expenditure information to states after the close of the
fiscal year; 3 the states must then submit the data for compilation and analysis; 4 and OCS, with
contractor support, drafts, reviews and clears the final report. 5

As indicated in response to the first recommendation, we have established a timetable outlining
specific milestones and deadlines. The timetable, which has been discussed and coordinated
internally at ACF, will enable us to submit the annual report to Congress within 18 months after
the end of the relevant fiscal year.



3
  CSBG funds are distributed by states on varied time periods and fiscal years. While some state fiscal years are
aligned to the federal fiscal year, many state fiscal years begin in July and others are concurrent with the calendar
year. As a result, the data for any given year is available at different times in different states.
4
  States require 3 to 6 months for compilation, quality review and data submission. For example, states were
required by OCS to submit FY 2013 information by the end ofMarch 2014.
5
  OCS works through a cooperative agreement on the collection and analysis ofdata through the CSBG Information
System Survey (CSBG IS Survey). After data is received, the National Association for State Community Services
Programs (NASCSP), the current grantee, compiles and analyzes the data. The resulting report is then provided to
OCS, which then incorporates additional information from state assessment reports conducted during the applicable
fiscal year and reports on CSBG-funded training and technical assistance (T/TA) projects.




The Office of Community Services Did Not Fully Comply with Federal Monitoring and                                14
Reporting Requirements for the Community Services Block Grant Program (A-01-13-02505)
Page4


OCS is finalizing a funding opportunity announcement (FOA) for the collection of critical
information to be included in the annual report to Congress. We are giving special attention to
requirements that will ensure the approved grantee will timely submit the required data. The
FOA also includes a requirement that the grantee work with OCS to ensure all state plans and
state annual reports are submitted directly to OCS using ACF's online resources, such as
GrantSolutions and the Online Data Collection System (OLDC). These new requirements will
ensure future CSBG congressional reports are sent to Congress within 18 months after the end of
the relevant fiscal year.

Recommendation: Strengthen and implement controls to ensure full compliance with CSBG
Act monitoring and reporting requirements.

OCS is implementing corrective measures to strengthen its ability to provide timely and accurate
oversight and monitoring. As previously noted, OCS has created and implemented a web-based
information-sharing and monitoring module that provides a management framework to ensure
compliance with reporting and accountability requirements. This electronic system also serves
as a repository of OCS' policies and procedures, and supports OCS' document-management and
record-keeping protocols and processes.

In addition, OCS is currently engaged in several projects and activities relating to performance
improvement, quality assurance, and accountability across the CSBG network. The initiatives
described below will contribute to enhanced state and local evaluation:

•	    Revised State Evaluation Guidelines: OCS is currently conducting a comprehensive
      review of its internal monitoring procedures and guidelines to strengthen internal
      accountability and implement accurate and practical timelines. For FY 14, OCS has
      already identified milestones for each step of the assessment cycle, and tasks and
      responsibilities for all staff involved; and is implementing a clear and concise timeframe
      for report preparation and issuance;
•	    Upcoming FOA: As previously indicated, OCS will award, by September 2014, a FOA for
      the collection of critical information to be included in the annual report to Congress. This
      FOA includes specific language delineating the grantee's accountability for data collection
      and report preparation, and establishing clear time requirements for data submission.
      These new requirements will ensure future CSBG congressional reports are sent to
      Congress within 18 months after the end of the relevant fiscal year;
•	    New Organizational Standards and Accountability Measures: OCS is developing a system
      of data-driven performance measures and standards that CSBG entities at all levels can use
      to judge and compare performance and hold themselves and each other accountable; and,
•	    Revised Network-wide Performance Management Measures: OCS is revising the existing
      performance management system and performance measures used by local community
      action agencies, and will ultimately seek OMB approval and authority to make these
      measures mandatory.

Recommendation: Ensure management stability and communication to oversee the effective
implementation ofthe recommendations from GAO's 2006 report and this review.




The Office of Community Services Did Not Fully Comply with Federal Monitoring and                  15
Reporting Requirements for the Community Services Block Grant Program (A-01-13-02505)
Page 5 



Last year, at the OCS Director's request, the Department of Health and Human Services Office 

of Business Management and Transformation conducted an assessment of OCS' organizational 

structure and functions. As a result, OCS has strengthened administrative and programmatic 

functions by recruiting and/or training additional staff. Specifically, OCS hired additional staff 

with appropriate skills and expertise to conduct state assessments and to provide training and 

technical assistance to improve state management and oversight of local agencies receiving 

CSBG funds. The new hires include a 511 series GS-14 financial operations branch chief, 

responsible for leading the state evaluations and producing the reports; a new GS-13 program 

specialist; and a new GS 9/11/12 CSBG program specialist. OCS also hired a GS-15 

management analyst to oversee its internal administrative functions, such as human resources 

and financial operations. 


OCS continues to promote a culture of accountability and communication within its programs. 

Last year, OCS conducted a survey of CSBG and LIHEAP grantees to learn more about how 

well OCS supports its customers in five critical areas: grant requirements and reporting, 

accessing grant funds, technical assistance provided by OCS staff, training provided by OCS 

staff, and T&TA offered by OCS-funded providers. OCS is using the survey results to make 

strategic decisions regarding internal staff capacity, enhanced protocols and practices, and better 

use of monitoring findings. 


Through OCS' new internal SharePoint site, OCS management and staff are sharing relevant, 

reliable, and timely information that facilitates the office's compliance with its performance and 

accountability goals. The internal site also supports a transparent and collaborative attitude 

toward achieving programmatic and administrative outcomes. 


OCS' web-based repository system on its public and internal websites facilitates record-keeping 

and information-sharing best practices. These websites provide continuity and permanence to 

OCS' efforts to ensure compliance with existing monitoring and reporting requirements, in the 

face of periodic management and stf!ff changes. 


ACF appreciates the opportunity to provide comments on the draft report and welcomes any 

further questions that the OIG may have regarding these issues. ACF did not wait to receive the 

OIG's final recommendations to begin making positive changes. We fully expect that the 

improvement actions already undertaken will result in a stronger, more effective and accountable 

CSBG program. We are committed to building on these initial improvements over the next six 

months. Please direct any follow-up inquiries to our Office of Legislative Affairs and Budget 

OIG liaison, Scott Logan, at (202) 401-4529. 


Sincerely, 

/Mark H. Greenberg/ 




Mark H. Greenberg
Acting Assistant Secretary
 for Children and Families




The Office of Community Services Did Not Fully Comply with Federal Monitoring and                 16
Reporting Requirements for the Community Services Block Grant Program (A-01-13-02505)
Page6

   ATTACHMENT A: OFFICE OF COMMUNITY SERVICES (OCS) SCHEDULE OF
  STATE EVALUATION RERPOTS ISSUED SINCE OCTOBER 2011, AS OF MAY 14,
                               2014



                                                                   Draft Response         Final Report
                      OCS Onsite Visit        Draft Report         Received From        Issued to State
     State                Started            Issued to State            State
 South Carolina          3/15/2010             9/14/2010            No response           4/7/2012
                                                                      received
     Arizona             5/24/2010             1/25/2011              4/17/2012           4/17/2012
 North Carolina          1/24/2011              4/1/2011              5/16/2011            9/9/2013
      Kansas             3/21/2011              11/8/2011            No response          9/21/2012
                                                                      received
  Pennsylvania           5/16/2011             9/25/2013              11/5/2013           1/16/2014
   Tennessee             7/18/2011             4/25/2013             No response          9/9/2013
                                                                      received
   New Jersey            9/26/2011             12/9/2013              2/18/2014           5/7/2014
    Michigan             10/24/2011            11/6/2013              1/13/2014           1/16/2014
    Alabama               1/23/2012            9/25/2013              11/1/2013           1/16/2014
     Missouri            3/26/2012             11/25/2013            No response          1/28/2014
                                                                      received
    New York             6/11/2012             9/30/2013             10/25/2013           1/16/2014
   Washington            7/30/2012             11/25/2013            12/30/2013           1/16/2014
    Wisconsin            9/24/2012             11/1/2013             1/13/2014            1/16/2014
    Colorado             10/22/2012            11/25/2013             1/24/2014           2/10/2014




The Office of Community Services Did Not Fully Comply with Federal Monitoring and                     17
Reporting Requirements for the Community Services Block Grant Program (A-01-13-02505)
